<html>
<title> - [H.A.S.C. No. 115-27]MILITARY ASSESSMENT OF THE SECURITY CHALLENGES IN THE GREATER MIDDLE EAST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 115-27]
 
                         MILITARY ASSESSMENT OF

                        THE SECURITY CHALLENGES

                       IN THE GREATER MIDDLE EAST

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 29, 2017
                             
                             


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 








                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-093                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     







                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
                Jennifer Bird, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Votel, GEN Joseph L., USA, Commander, U.S. Central Command.......     2

                                APPENDIX

Prepared Statements:

    Smith, Hon. Adam.............................................    37
    Votel, GEN Joseph L..........................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Abraham..................................................   107
    Ms. Stefanik.................................................   107
    
 MILITARY ASSESSMENT OF THE SECURITY CHALLENGES IN THE GREATER MIDDLE 
                                  EAST

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 29, 2017.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Today, we turn our attention to the Central Command area of 
operations, where much of the Nation's military power has been 
engaged since 1991. While we are rightfully focusing attention 
on other threats, such as a resurgent Russia and a newly 
assertive China, the threat of terrorism has not gone away. In 
fact, as we discussed at our hearing a few weeks ago, it is 
difficult to see how ISIS [Islamic State of Iraq and Syria] is 
totally eliminated from Syria, and Al Qaeda, with its various 
branches, has not disappeared either.
    And while terrorists have physically spread out to more 
locations, some of them have become quite adept at operating 
online as well, instigating terrorist incidents in the West.
    Of course, Iran poses a significant threat to regional 
stability, and none of us will forget about the essential fight 
to prevent Afghanistan from returning to be a base for 
terrorism. So there is much to occupy our witness today, and I 
appreciate his being with us to answer our questions.
    I also want to mention one additional issue, which has been 
in the news lately. There have been a number of press reports 
about civilian casualties in Mosul related to U.S. aerial 
support of the Iraqi efforts to reclaim that city from ISIS. I 
would just suggest that everyone be cautious. In a dense urban 
environment, there may well be civilian casualties, and even 
the finest military in the world can make mistakes. But we also 
know for certain that ISIS uses innocent civilians as human 
shields, and that they can arrange civilian deaths to further 
their misguided narratives. ISIS uses such narratives to try to 
advance their cause and to curtail the effectiveness of our 
military campaign against them. I think we should always give 
the benefit of the doubt to the professionals who are working 
every day to keep us safe.
    Let me turn to Mr. Smith for any comments he would like to 
make before turning to our witness.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I have a brief opening 
statement, which I will simply submit for the record. I echo 
the chairman's comments about how important this region is to 
our national security interests, and the challenges there are 
great.
    The only issue I want to highlight, and hopefully have the 
general discuss a little bit, as we continue in Iraq, the 
problem, to my mind, continues to be that the Baghdad 
government is not inclusive enough of the Sunni population. I 
met with the Sunni tribal leader yesterday. You know, certainly 
Prime Minister Abadi is trying, whereas Prime Minister al-
Maliki did not, but there has not been much improvement. There 
is still a feeling amongst the Sunni population that Baghdad is 
more--is closer to Iran than it is to their own Sunni 
population. And until we fix that problem, whatever happens in 
Mosul, whatever happens elsewhere, if you have a--you know, 
disgruntled, dissatisfied, pushed-aside Sunni population in 
Iraq, you are going to have fertile ground for ISIS or Al Qaeda 
or whatever extremist groups want to exploit it. So I am 
curious to hear what we are doing to try and reintegrate the 
Sunnis into the Baghdad government so that it is not a 
sectarian Shia government, but a government for Iraq. I think 
that will be a great challenge going forward.
    And with that, I thank the general for his service and his 
leadership and look forward to the testimony.
    I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 37.]
    The Chairman. General, without objection, your full written 
statement will be made part of the record. And you are 
recognized for any oral comments you would like to make.

STATEMENT OF GEN JOSEPH L. VOTEL, USA, COMMANDER, U.S. CENTRAL 
                            COMMAND

    General Votel. Thank you, Chairman Thornberry, Ranking 
Member Smith. For the members of the committee, before I do get 
into my short statement here, I do want to highlight for you, 
we have put a map at your--each of your spaces here. There is 
coverage on both sides. You will see the back side really 
focuses a little bit on the Iraq and Syria piece there, and the 
red kind of blotches kind of highlight where we think ISIS is 
located currently.
    Chairman Thornberry, Ranking Member Smith, distinguished 
members of the committee, good morning and thank you for the 
opportunity to appear here today to discuss the current posture 
and state of readiness of the United States Central Command 
[CENTCOM]. I come before you today on behalf of the outstanding 
men and women of the command; military, civilians, and 
contractors along with our coalition partners from nearly 60 
nations. Our people are the very best in the world at what they 
do, and I could not be more proud of them and their families. 
Without question, they are the strength of our Central Command 
team.
    I have been in command at CENTCOM for about a year now. It 
has been an incredibly busy and productive period. Over the 
past 12 months, we have dealt with a number of significant 
challenges in Iraq and Syria, Afghanistan, Pakistan, Yemen, 
Egypt and the Sinai, the Bab-el-Mandeb Strait, and elsewhere 
throughout our area of responsibility.
    We are making progress in many areas, but much, much work 
remains. We are also dealing with a range of malign activities 
perpetrated by Iran and its proxies operating in the region. It 
is my view that Iran poses the greatest long-term threat to 
stability in this part of the world.
    Generally speaking, the Central Region remains a highly 
complex area, widely characterized by pervasive instability and 
conflict. The fragile security environments, which reflect a 
variety of contributing factors including heightened ethno-
sectarian tensions, economic uncertainty, weak or corrupt 
governance, civil wars, and humanitarian crisis, are exploited 
by violent extremist organizations and terrorist groups, such 
as Al Qaeda and ISIS. These groups have clearly indicated their 
desire and intent to attack the U.S. homeland, our interests 
abroad, and the interests of our partners and allies. At the 
same time, the Central Region is increasingly crowded with 
external nation-states, such as Russia and China, who are 
pursuing their own interests in attempting to shift alliances 
within the region.
    The point that I would emphasize to you is that while there 
may be other more strategic or consequential threats or regions 
around our world, today, the Central Region has come to 
represent the nexus for many of the security challenges our 
Nation faces.
    And most importantly, the threats in this region continue 
to pose the most direct threat to the U.S. homeland and the 
global economy. Thus, it must remain a priority and be 
resourced accordingly. We sincerely appreciate this committee's 
continued strong support and particularly as it pertains to our 
budget requests and the funding provided, not only to be 
CENTCOM, but across the Department of Defense. We could not do 
what we do on a daily basis without that support.
    Meanwhile, the team at U.S. Central Command remains 
appropriately focused on doing what is necessary to protect our 
national interests and those of our partners. Our strategic 
approach is very straightforward: Prepare, pursue, and prevail. 
And I will explain what I mean by that. We prepare the 
environment to ensure an effective posture and strong 
relationships across the region. We actively pursue 
opportunities to strengthen relationships and support our 
interests. And when we do put our forces into action, we 
prevail in our assigned missions.
    I would also point out to you that today, to the credit and 
professionalism of our Armed Forces and coalition partners, we 
are executing campaigns in the Central Region with 
significantly fewer U.S. forces on the ground than in previous 
years. As you are seeing clearly demonstrated in Iraq and 
Syria, Afghanistan, Yemen, and elsewhere throughout our area of 
responsibility, we have adopted a ``by, with, and through'' 
approach that places a heavy reliance on indigenous forces. 
While this approach does present some challenges, and can be 
more time-consuming, it is proving effective and is likely to 
pay significant dividends going forward.
    Indigenous force partners continue to build needed 
capability and capacity, and they are personally invested in 
the conduct of operations and, thus, inclined to do what is 
necessary to preserve the gains they have achieved going 
forward. We also have a vested interest in insuring increased 
stability and security in the strategically important Central 
Region. To this end, I will close by highlighting three areas 
where I do believe if we apply the appropriate amount of energy 
and effort, we can and will have a lasting positive impact in 
this part of the world.
    First, we must restore trust with our partners in the 
region, while at the same time maintaining the strong trust of 
our leadership back here in Washington. The fact is, we cannot 
surge trust in times of crisis, and we must do what is 
necessary now to assure our partners of our commitment and our 
staying power.
    Second, we must link our military objectives and campaigns 
as closely as possible to policy objectives, and to our other 
instruments of national power. In other words, we must align 
our military objectives and soft power capabilities with 
desired national and regional strategic end states, recognizing 
that if we don't do this, we risk creating space for our 
adversaries to achieve their strategic aims.
    Finally, we must make sure that we are postured for purpose 
in this region. We must have credible, ready, and present force 
coupled with foreign military sales and foreign military 
financing programs that serve to build and shape partner 
nations capability in a timely and effective fashion.
    Ours is a challenging and very important mission. Much is 
at stake today in the Central Region. We recognize this fact, 
and I assure you that the CENTCOM team stands ready and willing 
to do whatever is necessary to protect our national interests 
and the interests of our allies and partners.
    Let me close by thanking this committee once again for the 
strong support that you continue to provide to the world-class 
team at United States Central Command, and particularly to our 
forces located forward in the region.
    As I said at the outset, the 80,000-plus soldiers, sailors, 
airmen, marines, Coast Guardsmen, and civilians that make up 
the command are truly the very best in the world at what they 
do, and I could not be more proud of them and their families. 
And I know that you are proud of them as well.
    Thank you, once again, and I look forward to answering your 
questions this morning.
    [The prepared statement of General Votel can be found in 
the Appendix on page 39.]
    The Chairman. Thank you, General. And you are right, we 
share your pride in them and in what they do.
    As we chatted just briefly before the hearing, you 
expressed interest in addressing some of the press stories 
regarding civilian casualties, especially in Mosul. Let me 
invite you to do that at this point.
    General Votel. Well, thank you, Mr. Chairman. And I 
appreciate the opportunity to talk a little bit about this 
right up front.
    First off, I want to emphasize to everybody here, all the 
members, that these are absolutely tragic and heartbreaking 
situations, and our hearts go out to the people of Mosul, and 
of Iraq, and other places where we are operating.
    We acknowledge our responsibility to operate at a higher 
standard. It is my responsibility, as a combatant commander, to 
ensure that our forces operate in accordance with those goals 
and standards. We take every allegation seriously, and we are 
executing a--what we have and are executing a well-developed 
process to assess and, if necessary, investigate each of these 
allegations.
    How we do things is as important as the things we actually 
do, and we are doing everything humanly possible to prevent 
these types of events and incidents from occurring as a result 
of our operations.
    I do agree with Lieutenant General Townsend's comments 
yesterday--he is our commander on the ground in Iraq--when he 
said that there is a fair chance that our operations may have 
contributed to civilian casualties, but I would highlight to 
each of you that this investigation continues, and there is 
still much to learn from this.
    We have a general officer assigned as the investigating 
officer to help us address and understand and discover the 
facts of this case.
    We were able to visit the actual site yesterday, and 
gathered both additional evidence and perspective on this 
situation. In addition, we are reviewing over 700 weapons 
systems videos over a 10-day period to ensure--over a 10-day 
period that followed this alleged incident, to ensure that we 
understand the effects of the munitions we dropped in this 
vicinity. This should be an indicator to you of how intensive a 
combat situation this is.
    The investigation will look at command and control; will 
look at the munitions we employed and the fusing for those 
munitions; it will look at intelligence; importantly, it will 
look at the behavior of the enemy; and it will look at how our 
actions may have played a role in any civilian casualties.
    The investigation will confirm or deny our initial 
impressions and highlight the lessons learned. And while we 
consider and establish accountability over our actions in this 
incident, I think it is also important to clearly recognize 
that the enemy does use human shields, has little regard for 
human life, and does attempt to use civilian casualty 
allegations as a tool to hinder our operations. And so they 
bear responsibility for this as well.
    The nature of this fight has evolved over the course of the 
operation, and on this 2\1/2\-year campaign. And our approach 
has evolved as well. One example of how we have evolved has 
been our effort to enable and entrust our leaders at the 
tactical edge with the authorities they need to help our 
partners win.
    We have not relaxed the rules of engagement. I have 
authorized Lieutenant General Townsend to delegate the 
employment of rules of engagement to the appropriate level due 
to the tough urban fight that we knew was coming in Mosul. To 
be clear, there were no changes to the types of targets and the 
rules of engagement that allows us to engage. We are aware of 
all of the reporting, especially by organizations like Amnesty 
International, Airwars, the Center for Civilians in Conflict, 
and the Syrian Observatory for Human Rights, and we have 
developed relationships with a number of these organizations, 
and we look forward to working with them as we complete this 
investigation.
    Thank you, Mr. Chairman.
    The Chairman. Let me just ask about a couple of the things 
you just said, because as you recognized, there is widespread 
reporting that the rules of engagement have changed, and the 
implication is now we are carelessly dropping bombs and killing 
civilians. But as I thought I heard you pretty clearly, the 
rules of engagement have not changed. Is that correct?
    General Votel. That is correct, Mr. Chairman.
    The Chairman. And you have a long experience in Iraq and 
dealing with this enemy. How would you describe their ability 
to create and further narratives that they see is in their 
interest?
    One example that stuck in my mind, I remember in Iraq that 
after a raid or something, the enemy came and deposited dead 
bodies, and then brought cameras in to make it look like they 
had been killed as a part of the raid, when, in fact, they 
hadn't. They were brought in after the fact. So just describe 
the sophistication of their efforts.
    General Votel. Thank you, Mr. Chairman. And I would--I 
would agree with you, that the enemy that we have faced in 
Afghanistan, in Iraq, Syria, and other places here is 
particularly savvy in how they use information operations. 
ISIS, in particular, is well-skilled in this. They have 
professionals, if you will, who have expertise in this 
particular area, and so they know how to manipulate the 
information environment and create situations that they know 
will cause concern for us in Western countries.
    And as I mentioned in my comments to you, I do believe they 
do attempt to use our concern to operate at higher standards 
and to prevent civilian casualties as a way to distract our 
campaign. So I think it is important that we recognize that. 
That has not changed how we approach things. It doesn't change 
our values. It doesn't change our adherence to the law of armed 
conflict and the fact that we do operate at a higher standard. 
But I think it is an important thing to recognize about our 
enemy.
    The Chairman. Well, I will just conclude by saying, we want 
to be informed of the results of the investigation. We share 
your commitment to make sure we do things the right way. And 
so--but the investigation needs to occur, and then you see what 
it finds.
    So I will trust you and your folks to keep us fully 
informed once you are able to reach conclusions on that.
    Let me yield to the ranking member.
    Mr. Smith. Thank you, Mr. Chairman.
    If you could answer the question I raised in my opening 
statement about, you know, where the Sunni population in Iraq 
is at right now, because it sounds like it is still a very deep 
divide. And while I, you know, concur with the chairman's 
comments about the civilian casualties in Mosul, I know that 
the Sunni population is concerned about the fight that is going 
on there and the loss of life that is happening from both 
sides.
    They are also concerned about the presence of Shia 
militias, Iranian-backed militias, and basically, the general 
feeling that this continues to be a Shia-run country that is 
not making room for the Sunnis, and that, you know, undermines 
our entire effort, I think, to defeat these groups. Is that an 
inaccurate portrait? Is it better than that? And what are we 
doing to try to fix what problems remain?
    General Votel. Congressman, the way that I would 
characterize it is, I think in the near term here, as Iraq and 
assisted by the coalition confronts the ISIS enemy that they 
are dealing with, there has been some level of local 
accommodation, some cooperation, some collaboration between 
different groups, really focused on doing this. I would cite to 
you our continued efforts to raise tribal forces to bring hold 
forces into these areas, particularly Sunni areas as--after 
they had been cleared, we have seen some success with that.
    But I would agree with you that long term, there is still 
much work to be done. I know in my interactions with the prime 
minister, we frequently talk about this. I know he is very 
concerned about it, and--but also, I think recognizes the 
balance that will have to be achieved here in the region with a 
variety of different interests that are ongoing. And so, I 
think he clearly recognizes that.
    But I would agree with you, more will need to be done to 
ensure that the Sunni population feels engaged, empowered, and 
a part of--part of the Government of Iraq and of the Iraqi 
people.
    Mr. Smith. Quick question on that. The issue of arming the 
Kurds or other Sunni tribesmen, there was, you know, 
frustration expressed, they weren't able to get those arms 
directly, and it is our position, our country's position, that 
all of that has to go through Baghdad, basically. Then I--I 
understand that to a certain degree.
    Is that accurate? And how is that impacting the ability to 
arm the Kurds and the Sunni tribesmen that we want to fight 
with us?
    General Votel. I believe we have made some--we have made 
good progress on that over the last year. There certainly were 
some issues with that in the past in terms of how that was 
done, but particularly as we got focused on the operation for 
Mosul, I think we saw a high level of collaboration and 
coordination between the Kurdistan Regional Government and the 
Government of Iraq, particularly as they prepared their plans 
and prepared their forces for that operation.
    And I would highlight to you that I think one of the--one 
of the key successes here, and I think this has influenced the 
Government of Iraq, is the--is a high level of coordination 
that took place at the military level and security levels as 
that operation gets underway, and that continues to this day. 
And I do believe that is a basis for moving forward. That said, 
it is something that we continue to keep our--keep our eye on.
    Mr. Smith. And then looking up to Syria, as we--you know, 
people prepare for the attack on Raqqa, there is the great 
question of, you know, you have got the Turks involved there, 
you have got the Kurds involved there, but they don't get 
along. When we are trying to figure out what our coalition is 
in Syria, particularly going after Raqqa, how are we currently 
deciding the issue between the Turks and the Kurds?
    General Votel. Well, there is engagement at the high 
political level that is taking place. And as you are well 
aware, the chairman has been a champion for us in working at 
the chief of defense level and back and forth. We have, from a 
CENTCOM standpoint, working in conjunction with European 
Command, we have increased our interaction in Ankara to ensure 
there is good visibility on the things that we are doing.
    And we certainly recognize Turkey's interests and concerns 
with us. They are a great partner here. We couldn't do many of 
the things we are doing without them.
    That said, the most effective force that we have right now 
in Syria is the Syrian Democratic Forces that consists of both 
Kurds and Arabs, Turkmen, and, in some cases, some Christian 
organizations.
    Mr. Smith. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Votel, thanks so much for joining us today. I want 
to get your perspective on what might happen in the future. We 
see today success happening in Mosul, with pushing out and 
defeating ISIS forces, both with our forces and with Iraqi 
forces. The question then becomes, I believe, in the future is 
what happens after that? And while ISIS is a concern, I believe 
that Iranian-backed Shia militant groups are an even greater 
concern. We don't hear a lot about that today, but I do believe 
that they are a significant issue. The IRGC [Islamic 
Revolutionary Guard Corps] commander, Qasem Soleimani, 
commander of the Shia militant groups in that region, I 
believe, with Iranian backing, has visions about what would be 
happening in the future as ISIS has moved out.
    Today, as we speak, Iran and the U.S. have common interests 
in defeating ISIS. The question, then, becomes once ISIS is 
defeated, Iran has in mind to recreate the Shia Crescent 
through that region. So by pushing out ISIS, and with the 
question about how governance takes place after that with the 
existing government in Iraq, what do you see as the future with 
us ultimately defeating ISIS, and what happens with these 
Iranian-backed Shia militant groups, and what happens there, 
too, with the Iraqi Government in trying to reestablish some 
kind of governance and control in those regions sans ISIS?
    General Votel. Thank you. Thank you, Congressman. I share 
in your concern about Iran and their long-term intentions here. 
Certainly, with 100,000-plus Shia militia members on the ground 
there, this is an extraordinarily--it is an extraordinarily 
concern, big concern as we move forward.
    I--we are engaged, and I know the embassy is well engaged 
with the Government of Iraq as they look to implement a 
paramilitary force law in their country. The prime minister, I 
know, has appointed a committee that is working through this 
aspect of it. We certainly have provided advice into that. We 
have given examples of how we employ national guards and other 
things here and how we would look at that.
    Our concern, I think, with that particular aspect is that 
the PMF [Popular Mobilization Forces], the paramilitary forces 
that remain behind, don't become duplicative to the 
counterterrorism service or to the Iraqi army and those types 
of things, and that there is a valid role for them, and that 
they do answer to the government, and that they remain, like 
the other security services, an apolitical entity, and, so, our 
very strong focus is in that particular--particularly with 
respect to the Shia PMF.
    Mr. Wittman. Staying on the theme of Iran, looking there in 
the Arabian Gulf, and more specifically, recently in the 
Straits of Hormuz, where we had four Iranian mass-attack 
vessels swarm the USS Mahan, there is a concern about that 
continued effort, and what they are trying to achieve with 
that, and what our actions are, or reactions to that might be.
    Give me your perspective, first of all, about the frequency 
of those attacks. What is Iran trying to achieve with that? 
Those probing maneuvers as I see them, I think, are very 
indicative of what Iran, I believe, is likely to try to achieve 
in that area, and that is to harass our ships just enough to 
stand us off.
    Give me your perspective on what you think the Iranians are 
trying to achieve there and what our reaction to that is, or 
what we are doing to try to prevent that.
    General Votel. Yes. Direct to your question, I think Iran's 
objective here is to be the regional hegemon. They want to be 
the predominant power in the region. There is no doubt about 
that, and I think that is what they are pursuing.
    One of the very first things I did after becoming the 
commander at CENTCOM was to get on a ship and go through the 
Straits of Hormuz. As an Army guy, I wanted to understand what 
this was. And, frankly, the Iranians did not disappoint. Within 
30 minutes of being on there, we had boats surround us in the 
area. I had a chance to observe our ship captain and crew and 
how they respond to that, and since I have had a chance to see 
that on a number of different occasions and I get normal 
reports on it.
    I will tell you, Congressman, I am extraordinarily 
confident in our leaders and in the processes, procedures, and 
capabilities they have to properly defend themselves.
    The presence of these types of boats out there very seldom, 
if ever, prevent us from accomplishing our missions. I think 
what they are out there to do is to demonstrate their presence, 
to, in some cases, potentially be provocative. I think as we--
you know, if you look over a course of a year, I think you see 
probably 300-plus incidents of this kind of nature. About 10 to 
15 percent of those we would classify as being abnormal, 
meaning outside of their normal pattern of life; 
unprofessional, meaning they are not following proper maritime 
procedures; or unsafe, meaning that they put themselves or they 
potentially put our vessel and our crews at risk.
    And so, we are paying extraordinarily close attention to 
this, but I feel very confident in our ability to protect 
ourselves and continue to pursue our missions.
    Mr. Wittman. Very good. Mr. Chairman, I yield back. Thank 
you.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    General, thank you for your service. I want to turn to 
Afghanistan. What kinds of support are the Russians sending to 
the Taliban, and how direct is their involvement? What does 
that mean about our ongoing conflict there?
    General Votel. Congresswoman, I think there is a lot that 
we don't know about what Russia is doing. I think it is fair to 
assume they may be providing some kind of support to them in 
terms of weapons or other things that may be there. Again, I 
think that is the possibility.
    I believe what Russia is attempting to do is they are 
attempting to be an influential party in this part of the 
world. Obviously, they do have some concerns, because it is 
in--it is close to former Soviet states that they consider to 
be within their sphere, so there is some concern about that. 
But, in general, I don't consider their outreach and linkage to 
the Taliban to be helpful to what we have been--what the 
coalition has been trying to accomplish for some time now in 
Afghanistan.
    Mrs. Davis. Could you share with us in your--the state of 
that accomplishment that you could talk about in this setting?
    General Votel. In Afghanistan? Well, I think--I think we 
have pretty well established, we are at a stalemate right now. 
Right now, I would say that it is in--generally, in favor of 
the Government of Afghanistan, but stalemates have a tendency 
to decline over time. So I think we do have to--we have to 
continue to support this.
    We have two missions in Afghanistan. One is our 
counterterrorism mission, fully resourced. That is going pretty 
well. I feel very confident in that. The other one is the NATO 
[North Atlantic Treaty Organization] mission, the train, 
advise, and assist. That is one where I think we ought to 
consider looking at our objectives here and how we--how we 
continue to support that mission going forward and ensure that 
the Government of Afghanistan has the time and the capabilities 
to accomplish what they need to.
    Mrs. Davis. Yeah. Clearly, I think the governance piece is 
important. We have, obviously, been working on that as well for 
some time. But there is a great deal of concern that it hasn't 
been as robust as is needed in that setting, and I am not sure 
that I would believe that that is going to increase. I think, 
if anything, it is probably going to decrease.
    Can you comment on that and the importance of that mission?
    General Votel. Well, I think that--that, certainly, is a 
topic under discussion now with the Secretary of Defense and 
General Nicholson and myself and the chairman right now. So we 
are in the process of going through a review of our posture in 
Afghanistan and how we ought to--how we ought to look at that 
going forward. I think it is still kind of predecisional at 
this point, so I am not sure I want to get out in front of the 
Secretary in announcing anything in particular. But it is a key 
topic here and one that Secretary Mattis has been very engaged 
with us on.
    Mrs. Davis. Thank you. One of the concerns as well is that 
the administration now has not been filling all the positions 
for that region, both--military, perhaps, is more covered than 
in other departments. But I wonder if you feel that these gaps 
are becoming problematic, and what should we be doing about it?
    General Votel. Well, Congresswoman, I have the benefit of 
having a Cabinet Secretary who previously held my job, and so 
he understands the region that I--that I am operating in right 
now. And I--and we have a very open and communicative 
relationship here, and so I feel I am getting everything that I 
need from the Department at this particular juncture.
    So I can't tell you that I have--I have been disadvantaged 
while the transition completes and gets in place.
    Mrs. Davis. Thank you. And just following up on my 
colleague's question earlier about how we are planning for what 
comes next in Iraq. What is it going to look like? And what is 
the extent of that planning? You know, how would you see that 
right now?
    General Votel. Well, I think, as I mentioned in my opening 
statement, I think this has to be--it has to involve more than 
just the military. And in my advice to the Secretary and the 
chairman as we began to look at how we move forward in these 
areas, my principal piece of advice was we have to look at the 
political preparation of these particular--of these areas and 
make sure that we are addressing some of these long-term 
issues, like we talked about a few moments ago, how we 
accommodate the different parts of the population; how we have 
a plan for governance.
    There is a lot that the military can do, but it is 
extraordinarily important that our diplomats, our Department of 
State, our other development agencies, others are involved in 
this particular process as well, and that we have a very----
    Mrs. Davis. My question----
    General Votel [continuing]. Smooth process.
    Mrs. Davis [continuing]. Is are they?
    General Votel. I believe they are. I feel very confident we 
are working with our partners on this.
    Mrs. Davis. Thank you.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. And, General, thank 
you so much for your long service to this country.
    I think it was raised earlier about the concerns about the 
Sunni Arab population. I mean, the fact is that after we left 
the country in 2011, that the Shia-dominated government 
reverted to their worst sectarian tendencies, and I believe 
pushed out the Sunni Arabs from the government and created an 
opening for ISIS to spill across the border from Syria and to 
capture those areas with little to no resistance, because it 
was simply no loyalty to the government of Baghdad.
    In the Iraqi constitution, there is a provision that was 
insisted by the Kurds--insisted by the Kurds that allows 
provinces to band together and to create semi-autonomous 
regions. Should, in fact, the Sunni Arabs look at that, and 
should we encourage that? It just seems like without a path 
where they have some say in--they are only 20 percent of the 
population--in their future--essentially, right now, all the 
revenue, basically, is from oil, most of the revenue, and so--
and that is distributed by the central government out of 
Baghdad. So it is a tough position that they are in. And so do 
you have a view on that particular issue?
    General Votel. Look, Congressman, as you know, our policy 
is one--one Iraq right now. And so that is--as we apply our 
military operations, that is the context in which we--which we 
do that.
    I would agree with you, though, that there has to be a very 
serious look at this, and there has--we have to ensure that the 
different parts of Iraq are represented in their government, in 
other things that are in their military and other security 
apparatuses, and other aspects and they have an opportunity to 
take advantage of the economic opportunity that is available in 
Iraq. So I certainly think there has to be much--a broader 
discussion about how we do that.
    Mr. Coffman. Yeah. I would hope that would be something 
that our government would look at from your standpoint, from a 
diplomatic standpoint, in terms of encouraging the government. 
Because the fact is, it is still the vertically integrated 
government that we had left--that was in place, you know, prior 
to the fall of Saddam Hussein, where, really, all decisions are 
centralized out of Baghdad. I mean, there is no system of 
taxation at the provincial level. And so, I just think that a 
decentralization of authority that the Kurds now enjoy would be 
great for the Sunni Arabs, and I would just like that to be 
something that we look at.
    And I would express my same concerns, having served there 
in 2005, 2006 for the Marine Corps, that the ranking member 
expressed in that this is a tough situation for the Sunni Arabs 
in that region, and the friction between the Shia militias that 
are Iranian-backed and that local population is not to be 
discounted. And, again, it is alienation from ever feeling that 
they are a part of the Iraqi Government.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Thank you, General, for coming today. Initially, in your 
answer to your first question about the Mosul incident, you 
said that you are going to assess, and if necessary, 
investigate. Can you help me understand that distinction from 
your perspective, what that means for us?
    General Votel. Absolutely. So, you know, this is, 
unfortunately, not the first time we have had allegations of 
civilian casualties in CENTCOM. And so what we do have is a 
process in place for how we--how we have standardized process 
for how we look at this. When we get--it starts off with the 
receipt of an allegation. We get allegations from all over the 
place. We get it from the news. We get it from social media. We 
might get it from people on the street. We might get it--we 
may--much of it is self-reported if we see something, so we get 
an allegation.
    What we do then is we do what we call a credibility 
assessment. And the intention there is to do an initial review 
of the facts and circumstances to merit, make a determination 
about whether we need to move to a more fulsome investigation.
    And so what we have--in this particular--and then if we 
make that determination, then we move to an investigation. And 
so for the incident that I was talking about here in Mosul, we 
have taken that step. We have decided, hey, there is--as you 
heard General Townsend acknowledge yesterday, there might be 
something here. We might--there is a fair chance that we may 
have contributed to this, and so now we have moved to the 
investigation phase.
    So it will be a more formalized approach to really look 
into the details of this as much as we can to establish what 
happened, establish what the facts are, identify 
accountability, and then certainly identify the lessons learned 
out of that.
    Mr. Larsen. And you mentioned on the criteria that you are 
looking at, there is command and control, there was a few 
others. What were those?
    General Votel. Thank you. So, you know, we will look at 
command and control. We will look at the intelligence that we 
had. This was a very dynamic situation. This wasn't a 
deliberate target or anything else. This was an evolving combat 
situation. So we will take a look at the intelligence that was 
provided to us by the Iraqis that we had. We will look at the 
enemy's reactions here, and we will try and understand exactly 
their role in this. We will look at the munitions that we 
employed here, and we will look at the fusing options. You 
know, you--we do have the technology, largely supported by 
Congress here, to have munitions that can be very specific.
    I think as you heard General Townsend say yesterday, the 
munition that was employed here should not have created the 
effects that we--that have been observed. So that causes us to 
look at that to see if there are other things that may have 
contributed to that as well.
    So what we do is try to be more--very complete in the 
investigation. It takes a little bit of time, but we usually 
have a pretty good answer at the end of it.
    Mr. Larsen. All right. Thanks.
    I am going to switch gears here to Yemen. And could you 
just briefly describe the U.S. security objectives in Yemen for 
us?
    General Votel. Well, thanks. I think there are two 
principal interests that we are concerned about in Yemen right 
now. One is that Yemen is not used as a platform or a sanctuary 
for attacks on the homeland. And that gets to our focus on Al 
Qaeda in the Arabian Peninsula, Al Qaeda in Yemen.
    This is the franchise of Al Qaeda that has demonstrated in 
the past the ability to try to attack our homeland, and some of 
those people are still--exist there. So that is a key aspect of 
our interests here. And so our operations are focused on 
disrupting Al Qaeda there.
    The other key interest that we have in this particular area 
is freedom of navigation. On the western coast of Yemen, 
between it and the Horn of Africa, is the Bab-el-Mandeb. It is 
an extraordinarily restrictive strait. It is a chokepoint. It 
is a major transit area for commerce, not only ours, but for 
international ships. About 60 to 70 ships go through there a 
day.
    What we have seen is we have seen, I believe, at the--with 
the support of Iran, we have seen the migration of capabilities 
that we previously observed in the Straits of Hormuz, a layered 
defense, consists of coastal defense missiles, radar systems, 
mines, explosive boats that have been migrated from the Straits 
of Hormuz to this particular area right here threatening 
commerce and ships and our security operations in that 
particular area.
    Mr. Larsen. Just can you--do you assess that we will be 
able to stay with those objectives, and we won't be dragged 
into other--other people's goals?
    General Votel. Well, of course, as you know, there is a 
civil war ongoing right there, that is playing out between a 
Saudi-led coalition and an Iranian-supported element. And so, 
there--you know, we provide some indirect support to that. 
Obviously, this is something we are paying very, very close 
attention to. While that rages, it does have--it does have some 
impact on our other--on our principal interests in this area, 
so I think we do have to pay some attention to that.
    Mr. Larsen. Thank you.
    The Chairman. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    It is going to--next month or so, it is going to be very 
intense here in Washington. Obviously, there has been a lot of 
talk about health care. But there is also something looming, at 
least in my mind, that is going to have direct implication on 
you, and that is the continuing resolution. That is the budget 
that we have got to pass to support you.
    And I am going to be very candid. You don't have to answer 
totally. I think you can kind of see this one coming, but a 
number of us are very, very worried about the readiness 
indicators, about--we had folks in talking about maintenance. 
You have got a large area, a large military, and everything 
else. And if we don't do this correctly, to the best--can you 
give us an evaluation, the impact in terms of readiness, tempo 
of ops, and the ability to conduct your mission?
    General Votel. Thank you, Congressman. And so, first off, 
you know, I--the support that I get from the services is 
extraordinary. They give me everything that I ask for, and I 
have been well taken care of by that. But I share your concern 
on the impacts of a continuing resolution on the services and 
on SOCOM [Special Operations Command] that really provide the 
capabilities that a combatant commander like I need to have. 
And so, I am concerned when we are not able to pursue long-term 
programs and fund them and approach them over time, I am 
concerned with the impacts that continuing resolutions and 
other instruments here have had on readiness.
    For example, I just--I look at the MEU/ARGs [Marine 
expeditionary units/amphibious ready groups] that the Marine 
Corps provides into my area as well as into the AFRICOM [Africa 
Command] and EUCOM [European Command] area. They don't come 
with all of the same number of helicopters that we have had in 
the past. I believe that is a readiness issue, and it impacts 
my ability to have flexibility and agility and react to things 
in the area. So I am very concerned about this.
    And while, you know, I--the money won't necessarily come to 
me, it goes to the people that provide me the capabilities that 
I need to pursue our objectives, and so I am very concerned 
about this.
    Mr. Cook. I want to switch gears a little bit. I am also on 
Foreign Affairs. And, you know, we have the issue that 
continually pops up about the foreign military sales, and last 
year, looked at the replacement for the Saudis, the number of 
M-1 battle tanks that they had lost. And sometimes--you have 
alluded to it, there was a question about Yemen and everything 
else and the toll that that has taken there.
    Do you influence at all with the State Department foreign 
military sales, particularly for some of our allies that would 
obviously contribute to your ability to conduct your mission?
    General Votel. Congressman, we absolutely do. We do that 
through our security cooperation offices that are located in 
many of these countries, almost all of the countries that we 
have here. And I would share your--share your concern about 
this. FMF [foreign military financing] and FMS [foreign 
military sales] are extraordinarily important programs for us.
    From my perspective as combatant commander, what I want to 
try to do is build capability for our partners to do the 
things--to provide their own security and then to be integrated 
with us. And I am concerned when we choose not to sell our 
systems, provide them to them. They will go somewhere else to 
get them, and they will get lesser systems. They won't get the 
sustainment, they won't get the training, and we won't be 
integrated. And it doesn't help us. So I think we have to 
recognize that this is an important part of our security 
cooperation aspect, and we can't completely define our FMF, our 
FMS systems as something to try to change people's behavior.
    That is certainly an aspect of it, but it has got to be 
focused on building capability, in my mind.
    Mr. Cook. Thank you, again, for your service and for your 
candidness. I yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, General, for your testimony this morning. I 
just wonder if you could help clarify what is going on right 
now in terms of increased deployments in Syria. Again, this 
month, again, from a whole variety of news outlets, it was 
reported about 4- or 500 marines were deployed, new marines, 
new contingent of marines this month. You know, why was that 
decision made, and what is their mission?
    General Votel. Thank you. So, Congressman, what we are 
constantly doing is this is an evolving campaign, and we are--
you know, the enemy changes, we change, and the situation 
changes a lot on the ground. What we are constantly trying to 
do is assess what our requirements are and how we best support 
our partners through our, kind of ``by, with, and through'' 
approach, and make sure we have the capabilities to fully 
enable them and to help them win. So there is a constant 
process of assessing what we need.
    I demand that our leaders forward--General Townsend, in 
this particular case, provides rationale for the additional 
capabilities that he needs, and that we have very, very clear 
roles and missions for the things that we are bringing forward.
    And so what we--we do have a very deliberate process. What 
you have seen here most recently are not things that just came 
up relatively quickly. These have been things that we have 
anticipated for some time, the--you cited, for example, the 
marines, and some of the artillery organizations. We have 
recognized that as we continue to pursue our military 
objectives in Syria, we are going to need more direct, all-
weather fire support capability for our Syrian Democratic Force 
partners. And so this--that is what you are seeing. So they 
have deployed. They are helping us with that particular aspect. 
They are also helping us with some of our logistics capability 
in Syria.
    Syria is a fairly immature area for us in terms of that, so 
we don't have a big infrastructure like we have in Iraq or some 
other places here, so we do need some help in those particular 
areas.
    So I--what I can assure you is that there is a rationale, 
and there are specific roles and missions for all of these 
capabilities that we are bringing.
    Mr. Courtney. So--well, thank you for that answer. Again, I 
don't actually want to second guess your sort of military 
judgment, but what I would--it sounds like, you know, they are 
starting to get much, sort of deeper involved in the fight in 
Raqqa. And I guess--you know, we voted a couple of years ago in 
this committee in defense authorization bills have been 
extending title 10 authorization, which, in my opinion, as 
someone who supported that, it was not about troops--you know, 
boots on the ground, direct military involvement, but this 
sounds like we are sort of creeping in that direction.
    General Votel. Congressman, I think what I would tell you 
is that we have not taken our eye off of what our principal 
mission is, which is advise and assist and enable--enable our 
partners. And, so, I think that is what you continue to see 
with all of these deployments right here.
    We are not--we have--one of our key principles here with 
our folks forward is to help our partners fight but not fight 
for them. And so, as we continue to bring these additional 
capabilities in, these are things that we emphasize. So they do 
fit into our continuing mission of advise, assist, and enable 
our partners.
    Mr. Courtney. Thank you.
    Again, I mean, there is a larger question here about the 
fact that I think the authorization of use of force is long 
overdue for a revisit, but that is our problem, not on your 
side.
    During the time you have been at Central Command, the 
carrier gap phenomenon has been occurring, again, from, I 
think, 2007 to 2015, we had continuous presence of carriers and 
air strikes against ISIS. I mean, how are you coping with that?
    General Votel. Thank you for bringing it up. I think this 
is another example of some potentially readiness concerns here.
    So the way that we do that is, what we have done is we have 
worked with--through our air and maritime commanders in 
theater. So we have, on occasion, brought in additional air 
force organizations to help fill in the gap in those particular 
cases. We just completed that with a squadron from the United 
States that came in and did an exceptional job for us for about 
90 days. And we also look to our allies, our partners, to do 
this. The U.K. [United Kingdom], the French, have surged some 
of their ships down in this particular area to help make up for 
this gap as well.
    So this is a constant management process for us. We expect 
to do this now. It has been vital to our operating here. We are 
always looking for ways we can kind of balance out what our 
requirements are with the whole joint force, whole joint and 
combined force that is available to us.
    Mr. Courtney. Thank you.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Thank you, General, for being with us today. We appreciate 
it very much.
    You know, we perceive that we are in the process of 
increasing our--and/or our allies' capacity and capabilities in 
the fight against ISIS right now.
    I am curious, what is the conduit for this committee to get 
some knowledge on number of personnel needed? And I don't need 
exact number, and I don't like when we have caps, because we 
end up using contractors instead of our troops, sometimes cost 
more. But just trying to get some understanding of what you 
need as far as personnel and what we need to execute the 
mission so that we can somewhat justify the expenditures that 
may be involved with that.
    General Votel. Well, Congressman, I think we have a closed 
session right after this, and I would be happy to talk with you 
in great detail about the advice that I provide and what we 
think we--what we need and what we have talked about with our 
leadership.
    Dr. Wenstrup. I appreciate that.
    Another question is General Scaparrotti the other day 
mentioned something about Russia's influence in Afghanistan 
increasing. What is your understanding of their influence, and 
how does it change your efforts?
    General Votel. I--it hasn't significantly altered our 
approach here at this particular point, but I think what they 
are attempting to do is they are attempting to be an 
influential third party here in Afghanistan. I think they are 
reaching out to the Taliban, and they have made the decision 
under their own determination that the Government of 
Afghanistan and the coalition that supports them is unable to 
solve the concern about ISIS, and I think they are much more 
concerned about ISIS and the potential that has to move into 
the Central Asian states, and potentially have an impact on 
them. And so, they have created a narrative that we really have 
to partner more with the Taliban to address this particular 
threat.
    And they are trying to leverage that into a bigger role in 
terms of, I think, trying to pursue peace agreements and other 
things with the Taliban.
    Frankly, I don't consider it to be particularly helpful at 
this particular point to what we have been doing and the 
process that we have been using.
    Dr. Wenstrup. So does that change your behavior in any way 
with their presence?
    General Votel. I don't think it has changed our behavior. 
We have been working with our Afghan partners. We have been 
extraordinarily focused on the Islamic State as it has emerged 
in Afghanistan. It has, I believe, had a significant amount of 
success against them. We have reduced them from about 15 
districts that they are operating in to about 2. We are 
targeting a lot of their leaders right now. We have persistent 
pressure on them all the time. So it has not--it has not 
impacted our approach.
    Dr. Wenstrup. Okay. Thank you, General. I appreciate it. I 
yield back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And it is good to 
have you with us today, General.
    I appreciate very much you taking the time here. I want to 
thank you for your service to our Nation, as well as the 
remarkable women and men who are serving in some of the most 
contested parts in the world. We are forever grateful.
    And I appreciated listening to your opening statement as 
well as reading your written remarks, which I think illustrate 
so clearly the threat posed by ISIL [Islamic State of Iraq and 
the Levant], Al Qaeda, and other affiliated groups in the 
region, and certainly make clear that there are no easy answers 
given the seriousness and complexity of the challenge to 
reverse ISIS' gain.
    But I am also concerned about the steady buildup of U.S. 
forces in the region, most especially in Syria, absent a robust 
debate in Congress on an authorization for the use of military 
force, something Secretary Mattis called for last week before 
the Senate Armed Services Committee, and I was glad to see 
that.
    I am concerned that additive deployment may lead to an 
expansive, open-ended commitment. I think you have referenced 
an evolving campaign, that could have long-term consequences 
raising substantial and unpredictable risks that haven't been 
fully considered or endorsed by Congress as a whole.
    I am also mindful of the human toll in the countries where 
we are waging the fight against ISIL and how mounting civilian 
casualties, tragic in and of themselves, as you yourself said, 
can ultimately work against our long-term interest in setting 
the conditions for stability.
    And I appreciate your redressing--addressing it in your 
open remarks, but I also appreciate the important work that 
international groups are playing in monitoring civilian 
casualties.
    As reported in The Washington Post yesterday, quote, 
``According to Airwars,'' a group that you are familiar with, 
which is a British monitoring group, ``the frequency of 
civilian deaths alleged to be linked to U.S. strikes in Iraq 
and Syria has now outpaced those linked to Russia. The scrutiny 
has been compounded by a string of high-profile reported U.S. 
attacks in both countries, including assaults on a mosque, a 
school, and, most recently, a building apparently used as a 
shelter in the Iraqi city of Mosul'' that is currently being 
investigated appropriately so.
    These reports come alongside indications that the 
administration is considering relaxing the rules of engagement 
put in place by the Obama administration, which made a 
concerted effort at avoiding civilian deaths, and you have said 
today that there has not been such a change.
    And I have read that you have said that the coalition will, 
quote, ``take extraordinary measures to avoid harming 
civilians,'' unquote.
    So can you tell us how you balanced a pursuit, a very 
important military objective, with those extraordinary 
measures? And, in particular, when fighting an enemy that 
intentionally places civilians in harm's way, we all know that, 
how much risk should the U.S. and its civilian coalition 
partners accept in limiting air or artillery strikes where it 
may be difficult to confirm civilian presence, especially in 
Mosul, where civilians have been directed to shelter in place? 
So there are so many still there. It seems to be an 
extraordinary challenge, and I am curious as to how you are 
thinking this through in order to minimize civilian casualties.
    General Votel. Thank you, Congresswoman, for your question 
there.
    First off, you know, we have provided, I think, very clear 
and concise guidance to our commanders in the field. I think 
the principal way that we are addressing this is by entrusting 
and enabling our very well experienced and trained leaders on 
the ground. They are the best guard against this. We have seen 
that in the past. We will see it in the future here. Their 
judgment, their experience is the best thing to ensure with 
this.
    As we go through this, you know, and with our on-scene 
commanders that are very, very close to this, I think the key 
thing that we do emphasize to them is we go to war with our 
values, we hold ourselves to a higher accountability, a higher 
standard with respect to this, and, of course, we always 
operate in accordance with the law of armed conflict and we do 
everything that we can to prevent this.
    And what we try to do is we try to work that through our 
leadership and ensure they understand the obligation that we 
all expect, and that as they carry out these obligations in 
what are extraordinary, complex, and difficult situations, that 
they are making the best judgments, the best decisions that 
they can based on the information that they have. And I will 
tell you that in many, many, many cases, they are making the 
right calls. I have visited--I visit Iraq every month and I 
talk to our advise and assist teams and I hear about operations 
that we support, but I will tell you at the same pace, I hear 
about operations where we choose not to strike, where we choose 
not to do something because it didn't look right, we couldn't 
confirm what was going on, we didn't have a good situational 
awareness.
    So I think, from my perspective, we are going to trust our 
processes and we are going to trust our people and we are going 
to continue to put emphasis on that throughout the process.
    Ms. Tsongas. Trust but verify your processes.
    General Votel. Right.
    The Chairman. Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman.
    Thank you. It is good to see you again.
    And I guess my own take on it is that we are not seeing a 
never-ending increase; we are recovering from a massive 
decrease in disengagement in the region. It has not been that 
many years ago, six, and because of that decrease, we now see 
Iraq in the throes of a civil war, Syria in the throes of a 
civil war, Yemen in the throes of a civil war, the complete 
area destabilized, making a whole number of things even harder 
to deal with, plus distancing to our allies in Saudi Arabia, 
Egypt, not to mention other coalition partners on a whole 
number of other affairs. And so I tend to disagree with some of 
my colleagues here in that view.
    With regard to collateral damage, no one cares more about 
civilian casualties than the United States military, no one. No 
one takes more pain or more effort to prevent the needless loss 
of life. No one has the systems in place to prevent the things 
that we do in our targeting systems and everything else. And we 
know about our own errors, because it is us who expose them, 
who discover them, and who try to refine them.
    So before we get in a bashing of those that are in uniform 
and needless loss of civilian casualties or somehow suggesting 
that we are causing more civilian deaths than the Russians, I 
challenge that, I defy that, I reject that, I don't think that 
it reflects anything to our practices as a nation or certainly 
our men and women in uniform.
    General Votel, you spoke of the need to use the other 
instruments of national power. There are a number of areas that 
we obviously see a need to do that, you have spoken to a lot of 
them, but I guess one of the most troubling things that gets 
the least amount of attention is Yemen. And as we would see the 
Gulf of Aden now slip into a possible future Hormuz Strait, 
there is serious implication with that. We have got 60 percent 
of the Yemen population now that is malnourished. We have got 
opportunities to do a lot of good things with President Hadi 
and other efforts.
    The foreign military sales being crucial, the foreign 
engagement being crucial, if you could design it where you 
engage the other instruments of national power to support the 
coalition efforts as well as the CENTCOM efforts, what would it 
look like? What would you want that other engagement to be 
other than just the military?
    General Votel. Thanks, Congressman. I think that, you know, 
certainly one of the things that has to be addressed, as you 
kind of highlighted here, is we have to resolve the civil 
conflict that is taking place there, right. That creates an 
environment that makes it extraordinarily difficult for us to 
be--has made it difficult for us to be persistent in our 
efforts against Al Qaeda. It has caused us to break 
relationships we had with the Yemeni forces we developed over a 
course of years, and it has given rise to the threat that we 
have already talked about this morning in the Bab-el-Mandeb in 
the Red Sea, an area where we have 60 to 70 ships go through 
every day, not just U.S., but international ships go through 
there. So I think that is important.
    So I think the thing that we have to continue to press on, 
is we have to press in our diplomatic efforts to resolve that 
conflict as quickly as we can. I think that will help, I think, 
set the table. There are perhaps some things that we can assist 
with on the military side to bring that forward without 
becoming enmeshed into a civil conflict here. We should 
consider those things.
    I will tell you, I have talked with our ambassador there on 
a regular basis. He is excellent. He is extraordinarily engaged 
here. And I just think we have to continue to press in this 
particular area. And this is an area where we will need the 
Department of State and others to help us move through.
    Mr. Russell. Do you still see a base of support? A lot of 
relationship has been developed for decades, and much is lost 
if we see the things tip toward the Houthi rebels and, as you 
had mentioned, Al Qaeda gaining leverage with engagement with 
the population and assisting in feeding them and other things. 
Could you speak to some of that?
    General Votel. I do. And I would highlight to you that we 
have some very good partners in the area, certainly Saudi 
Arabia on the edges here, and the United Arab Emirates [UAE] 
have been extraordinary partners for us and they have good 
relationships here. So I do see the ability to reestablish some 
of these partnerships again.
    Mr. Russell. Thank you. And thank you, Mr. Chairman.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Thank you, Mr. Chairman.
    And thank you, General Votel, for your very great insights 
today.
    I want to switch back to Iran for a moment. You know, you 
said you believe that Iran is one of the greatest threats to 
the U.S. today. So if that is true and your assessment is true 
that their overall objective is to be the most powerful in the 
region, then to pursue this end, do you believe Iran has 
increased destabilizing activities since the JCPOA [Joint 
Comprehensive Plan of Action], and if they have, how should we 
react to these alleged activities without risking escalation 
and other conflicts in the region?
    General Votel. Congresswoman, I do believe they have. And I 
believe that Iran is operating in what I call a gray zone, and 
it is an area between normal competition between states and 
just short of open conflict, and they are exploiting this area 
in a variety of different ways. They do it through raising 
surrogate forces, they do it through lethal aid facilitation, 
they do it through their own cyber activities, and they do it 
through their influence operations. And I think they are 
clearly focused in this particular area, and I think they 
have--their efforts have increased in this particular area.
    I think the things that we need to do is--I think there are 
three broad things, and I have had an opportunity to talk to 
some of our regional partners about it. I think we need to look 
at opportunities where we can disrupt through military means or 
other means their activities, particularly their facilitation 
aspects here. I think we need to look at opportunities where we 
can expose and hold them accountable for the things that they 
are doing. That has to be done. They have to account for their 
destabilize--the destabilizing role that they are playing in 
the region right now. And, finally, I think we do have to 
address their revolutionary ideology, and what has to be 
addressed. And certainly we play a role in that, but others in 
the region do as well. Iran has a role in the region. There is 
no doubt about that.
    And I want to be clear that we think differently about the 
people of Iran than we think about the leadership of Iran, the 
revolutionary council that runs Iran. In my mind, those are two 
very distinct things. And our concern is not with the people of 
Iran, but it is with their revolutionary government.
    Ms. Rosen. Thank you.
    And I would just like to switch a little bit to the greater 
geopolitical tensions in the region. Is terrorism really the 
most pressing threats emanating from the Middle East, and what 
is our best way to exert our influence, if that is true, 
against those threats?
    General Votel. Well, Congresswoman, I think terrorism is 
what is being manifested out of what are really deep underlying 
issues that pervade this region. There are some serious 
sectarian issues across the region that have to be addressed. 
There are disenfranchised populations, there is economic 
disparity between governments and the people that they lead. 
And so these deep underlying issues in many cases still remain 
across the region. Those have to be addressed.
    And I think the way that we see this being manifested is in 
violent extremism, that we see the rise of ISIS. When you go 
back and look at why that came up, the desire for young men and 
in some cases young women to join organizations like Al Qaeda 
or ISIS, they are looking for a job, they are looking for 
money, they are looking for relationships, they are looking for 
economic opportunity that may not exist in their local 
communities.
    So there are deep underlying issues that have to be 
addressed in this region that give rise to these threats that 
we are focused on. So I don't want to give the impression that 
beating ISIS will--it will remove a threat, but it won't solve 
many of the underlying challenges in this particular region. 
That will take more work.
    Ms. Rosen. So considering that we are going to be creating 
a bill fairly soon, where do we best put our resources to fight 
this? What do you need?
    General Votel. Well, I think this--Congresswoman, I think 
we have identified, from a military standpoint, I need to build 
and sustain the operations that we have ongoing in places like 
Iraq and Syria, and really across the region. I need to ensure 
that the services, that Army, Navy, Air Force, Marines, and 
SOCOM, that provide me capabilities, have the resources they 
need to develop the capabilities and the resiliency within 
their formations to continue to provide me things.
    So, you know, those are the key things that I am thinking 
about right now in terms of the resources that I need moving 
forward.
    Ms. Rosen. Thank you.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, General Votel. Do you know how many civilians 
have been killed by ISIS in Iraq and Syria?
    General Votel. Congresswoman, I do not know that number.
    Ms. McSally. I mean, there are media reports. I would love 
to hear back from you on what the number is, but it is in the 
tens of thousands. Is that probably fair?
    General Votel. I think that is fair.
    Ms. McSally. Thank you. And having spent a lot of time in 
the targeting process both shooting 30-millimeter out of an A-
10 all the way up to, you know, working at the COCOM [combatant 
command] level, I just want to agree with my colleagues here 
and with your statements that we go through great pains in our 
targeting cycle to make sure that we are compliant with the 
laws of armed conflict and that we are avoiding civilian 
casualties.
    More for my colleagues, I want to make sure you understand 
what the laws of armed conflict [LOAC] are. That if we have a 
legitimate target, we do everything we can to minimize civilian 
casualties, but we are not allowed to target civilians. We 
never target civilians.
    Is ISIS targeting civilians?
    General Votel. I believe they are.
    Ms. McSally. Absolutely. Is it a violation of the law of 
armed conflict to have human shields?
    General Votel. Yes, it is.
    Ms. McSally. So ISIS is violating the laws of armed 
conflict.
    Again for my colleagues, the standard for the LOAC is that 
we make feasible precautions towards limiting civilian 
casualties while we are hitting legitimate military targets. 
The last administration went above and beyond this, far higher 
than I have ever seen before in my 26 years in the military, 
using near certainty that no civilians will be killed.
    I agree with some retired generals, General Deptula, and 
most recently, General Dunlap published something a few days 
ago on this, that if we are not hitting legitimate military 
targets and allowing these terrorists to continue to live, then 
we are actually allowing them to continue to kill civilians. I 
mean, this actually enables them to continue their terrorist 
activities, to include exporting it to other places.
    So this is what General Dunlap calls a moral hazard of 
inaction, of us doing nothing on legitimate targets because of 
this near certainty standard, from my view, actually allows the 
terrorists free rein to continue to kill civilians, tens of 
thousands.
    And also, I now believe that what we are seeing in the 
change here is that ISIS knows that they can use human shields 
to avoid being hit. It is their air defense system. 
Additionally, it is my view that as we move closer into the 
urban conflict into Mosul and they are using human shields, 
civilian casualties are going to go up. This is a horrible 
element of war, that ISIS started this war.
    So do you agree that some of the high level of, I think, 
ridiculous standard that we had previously has now created this 
behavior by ISIS, that they now realize if they take human 
shields, they are going to avoid being struck, and that 
actually this is adding to the problem?
    General Votel. Congresswoman, I do believe they understand 
our sensitivity to civilian casualties and they are exploiting 
that, and I do agree that as we move into these urban 
environments, it is going to become more and more difficult to 
apply extraordinarily high standards for the things that we are 
doing, although we will try.
    Ms. McSally. Great. Thank you.
    Again, I look forward to continuing to talk with you in the 
classified realm, but, look, this whole line of thinking that 
somehow because we are engaging the enemy and, unfortunately, 
again, the investigation is ongoing on this latest attack, 
somehow it is our fault that as we are engaging the enemy, that 
perhaps civilians are being killed either by mistake or because 
the enemy is using a tactic that actually has them become part 
of the target. That is on them, not on us.
    And if we then move back further and allow more terrorists 
to live to fight another day because of this narrative, then we 
are going to actually open up more civilians to be killed by 
these terrorists. Is that a fair line of thinking?
    General Votel. I share your concern, Congresswoman.
    Ms. McSally. Great. Thank you.
    I also want to ask, and maybe this is more for the 
classified setting, when we are identifying combatants and 
noncombatants, this used be a pet peeve of mine, sometimes I 
would be in VTCs [video teleconferences] where we were getting 
ready to schwack some bad guys in Somalia, and I would hear the 
terminology of whether there is women and children versus men. 
There are combatants and noncombatants. And what we saw in 
Yemen is we had a bunch of women that were actually shooting at 
our troops. That has been reported in the media.
    So can you confirm with me that we are still using the 
terms in our analysis of combatants and noncombatants, and we 
are not making assumptions that just because you are a woman, 
you are not a combatant? That is not the law of armed conflict.
    General Votel. We do think of it as that and look at it 
that way.
    Ms. McSally. Okay. Great. Thank you. Thanks, Mr. Chairman. 
I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. General Votel, 
welcome back before the committee. I want to thank you for your 
testimony, but most especially for your service and the men and 
women who serve under you. We are grateful for all you do to 
defend the Nation.
    As our cyber capabilities are maturing, particularly with 
U.S. Cyber Command now being stood up and the training and 
deploying of our cyber mission teams, can you please discuss 
with us your views on the impact of our cyber operations 
against ISIL, how effective they have been and what more can be 
done to enhance them?
    General Votel. Thank you, Congressman.
    And I look forward to an opportunity to talk about this in 
a classified setting as well, but what I can tell you here is 
that I think, with the great support of Admiral Rogers and the 
team at Cyber Command [CYBERCOM], we have forged a very close 
relationship between CENTCOM, Cyber Command and their 
subordinate elements, and I would throw SOCOM in there as well, 
that has allowed us to use this capability to have effects 
against this particular enemy. And I do think we are starting 
from an area where we didn't have much experience in this. We 
are actually creating effects on the ground.
    I would share with you that this is an extraordinarily, 
extraordinarily savvy enemy, and so they have capabilities in 
this area, and we will need to continue to evolve in this. I 
would also add that some of our partners, some of our coalition 
partners have unique capabilities in this area, and they have 
been well integrated into this as well. So I do think we are 
beginning to have good effects with this, but there certainly 
is more that we need to do.
    Mr. Langevin. Good. And I look forward to following up and 
getting some more details when we get into the classified 
session.
    Let me ask you this. In your opinion, is the current joint 
task force areas command and control construct effective, 
efficient, synchronized, and deconflicted with other operations 
taking place in the CENTCOM area of responsibility? And, also, 
how would you characterize support and integration with teams 
from U.S. CYBERCOM?
    General Votel. I think they are excellent in both cases. In 
fact, when we recently hosted a congressional delegation down 
at CENTCOM to talk about things we are doing, we actually 
invited JTF [joint task force] areas to come in and be part of 
that because we consider them to be that close of a team 
member.
    So I think the integration has been exceptional with JTF 
areas, and the leadership there at Cyber Command and in that 
particular organization have been extraordinarily well engaged 
with us.
    Mr. Langevin. Thank you.
    Another topic. We obviously rely heavily on special 
operations forces [SOF] for operations around the globe. The 
authorities and capabilities of SOCOM allow us, obviously, to 
keep the footprint small and carry out unique activities. 
However, that utility may have led to an overreliance on SOF.
    As the former SOCOM commander and current CENTCOM 
commander, what are your concerns in this regard? And what 
actions can we take to decrease the high demand for SOF around 
the globe, such as increasing conventional forces training 
capability?
    General Votel. Well, as the former SOCOM commander, 
obviously, you know, we wanted to do everything we could to 
support the other combatant commanders here. And, you know, 
General Thomas and I have, I think, a very strong relationship, 
we talk frequently, and I think we have been able to figure out 
ways that we can manage the force moving forward here. So I do 
support the--you know, obviously the very continued support of 
them.
    I will tell you, one of the things that does concern me a 
little bit about SOCOM and some of the very unique capabilities 
that they have is that many of them are heavily leveraged in 
OCO [Overseas Contingency Operations budget line]. Some of the 
very unique capabilities, and, again, we can talk about this in 
a classified session, are very heavily leveraged in OCO, and 
that concerns me about the sustainability.
    It concerned me as the SOCOM commander and now concerns me 
as the CENTCOM commander, who are very dependent on that. I am 
very concerned about that. I think we need to stabilize that 
and I think we need to make the commitment to give SOCOM the 
things they need to serve the Nation.
    Beyond that, Congressman, I would tell you one of the 
things I am most proud of being the SOCOM commander--or being 
the CENTCOM commander is the very close relationship between 
our SOF forces and our conventional forces. It is almost 
indistinguishable how they are able to operate, and that comes 
for a variety of reasons; certainly our experience over the 
last 15 or 16 years working together and the fact that a lot of 
our leaders know each other, not just professionally.
    But personally, but I want to assure the committee and I 
want to assure the American people that we are fighting the 
enemy together, we are not fighting each other here, and that 
was not always the case in the military, but I am very pleased 
with how our conventional and SOF forces are working very, very 
closely together, with our interagency partners as well.
    Mr. Langevin. Very good, General. Well, as a former SOCOM 
commander, I have great confidence that you are going to 
balance that force just right and you are in a unique position. 
So thank you for you are doing, and I look forward to the 
classified session.
    I yield back.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    And I want to thank General Votel for your leadership, and 
your team. So many challenging problems in your AOR [area of 
responsibility], and it is not just one, two, three, it is just 
hard. So I know you and your team work very hard at that, and 
we appreciate it.
    I associate with the comments too of some of our colleagues 
here that say that we need to get a congressional authorization 
for force. I think we do. I think what we did in 2001 and 2003 
are applicable and I feel like we have got to work towards that 
in Congress.
    And I also want to say that I agree with your comments on 
Iran. I think you are right on target. My fourth deployment 
there, I think, when I was in there 2007 and 2008, I believe 
roughly half of our service men and women were killed due to 
actions from Iran with the explosive--or the EFPs [explosively 
formed penetrators] and the very support they were giving to 
the Shia militias, and I dare say it would probably be about a 
thousand of our service men and women over time were killed due 
to the Iranian actions.
    My question to you today is, we can do kinetic operations 
indefinitely with ISIS or Al Qaeda, but I don't think in the 
end that wins the fight. How do you see a grand strategy, or 
how do you see our grand strategy to defeat these enemies? It 
has got to be--we have got to go after their ideology, their 
financing, their recruiting. Do you think we have the right 
strategy?
    General Votel. I do, Congressman. I think we do have the 
outline of a good strategy to address the things that you are 
highlighting here. As you are aware, one of the first things 
that the new administration did was direct the Secretary of 
Defense and the Secretary of State to come up with a plan to 
address and defeat ISIS more completely. And I think the 
acknowledgement that that is both the Department of Defense, 
Department of State, and many others in the government here, I 
think, is an acknowledgement that we need--that we do need to 
do that. We certainly need to go after their finances, we need 
to go after where they are physically, we need to go after the 
conditions that give rise to these particular organizations.
    But I would also add that we need to go after this 
ideology. And there are things that we can do, but there are 
certainly things that our partners in the region can do. There 
are just some things that as a western country, as the United 
States, will not resonate as fully as it will from people in 
the region with respect to that.
    So the ideology, in my view, is very, very important. And 
then getting after the underlying issues that we talked about 
here, I think, is ultimately what we really have to focus on.
    Mr. Bacon. One follow-on. In 2007 and 2008, we had great 
success largely because the Sunni tribes came over and started 
helping us against the fight--against Al Qaeda. I think on a 
grander level, we need to have that Sunni help, like you are 
alluding to, but our agreement with Iran, I believe, undermined 
the trust of many of the Sunni countries, I have heard that 
from some of our Sunni friends, because I think they fear Iran 
just as much as they do ISIS in many cases.
    Have you seen that same trend when you have talked to our 
Sunni friends? Is there concerns with what we did the past 2 
years, 3 years with Iran, and have you seen that undermine that 
ability to work with our Sunni friends?
    General Votel. Truthfully, Congressman, I have. I have had 
Sunni leaders and other Arab leaders tell me that same thing. 
And so I know there certainly is a perception out there about 
that, and as you know, oftentimes perception is truth in many 
quarters here.
    So that is why I think one of the key things that we have 
continued to emphasize with our people and with our leadership 
is the importance of building and rebuilding trust with our 
partners in the region. These are difficult situations here. 
And they are not all perfect, but we have to--I think it is 
better to be engaged with them and to be their confirmed 
partner.
    And, frankly, the impression I get when I talk to all of 
our partners in the region is they do prefer the United States. 
They want to have a relationship with us. And so I think we 
ought to look at ways that we can take advantage of that moving 
forward.
    Mr. Bacon. Thank you very much. And, Mr. Chairman, I yield 
back.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And, General, thank you for the job that you are doing. And 
I am so glad you are there now, especially given your past 
track record.
    When it comes to Yemen, I am really glad that we are taking 
steps now to support our allies in the area and our friends in 
the area. When I have talked to people from the Emirates, for 
instance, their concern isn't ISIS, I mean, that is a concern, 
but they are concerned about Yemen and the Iranian proxy war 
that is going on there.
    How do you evaluate what is going on in Yemen? I know we 
had a tragic loss of life with the recent raid, and that was 
regrettable, but I think it is very important that we are 
supporting Saudi Arabia and the Gulf States, and I think it is 
overdue that we are doing that. What are your perspectives on 
Yemen?
    General Votel. Well, Congressman, you know, as I mentioned 
a little bit earlier, I mean, I think there are some vital U.S. 
interests that are at stake here. Certainly we don't want Yemen 
to be used as a platform for attacks in our homeland or against 
our allies or partners around the globe or in the region, and 
so we have to--we have to be focused on that.
    I am extraordinarily concerned about another contested 
maritime chokepoint in the region. And so that directly impacts 
our national interests, the freedom of navigation, freedom of 
commerce, and supports our global economic objectives here, and 
so I think we have to be very, very concerned about that. So I 
do think there are some vital aspects of that. All of that is 
against the backdrop of this civil war that you talked about 
here.
    And, you know, certainly we all understand the implications 
of becoming involved in those types of activities. And if we 
don't choose to do it militarily, then we have to look at ways 
that we can try to move forward and try to resolve that 
situation. I do believe that as long as that continues to boil, 
that it will impact the ability for us to really focus on other 
principal interests that we have in that part of the world.
    Mr. Lamborn. Well, and obviously everyone wants peace in 
the area and the fighting to stop, but until that happens, I 
think we have to take the side of our friends and allies, and 
they are so concerned that Iran is using the Houthi rebels as a 
proxy to destabilize and ultimately come after them. That is 
their perspective.
    And while I don't think we need to consider any kind of 
boots on the ground or anything like that, I think as much as 
we can do with ISR [intelligence, surveillance, and 
reconnaissance] and things like that to support our friends and 
allies is critical. If you want to better address this in the 
closed section of the hearing, tell me that, but is there more 
that we can be doing?
    General Votel. Yeah, there is. And I think this would be a 
really good topic in a closed session, Congressman.
    Mr. Lamborn. Okay. Thank you. Mr. Chairman, I yield back.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Thank you, General, for being here.
    A quick follow-up on Yemen. To what extent has the ongoing 
fighting there enhanced or undermined AQAP's [Al Qaeda in the 
Arabian Peninsula's] power and reach? And do you envision a 
long-term presence for the Emirates and the Saudis in Yemen, 
and if so, do their long-term objectives in Yemen align with 
our own?
    General Votel. Well, I think we had--you know, before the 
civil war started, it was my estimate that we had a very good 
focus on Al Qaeda in the Arabian Peninsula. The civil war 
changed our posture there. And in the--underneath the ongoing 
civil war right there, I do believe Al Qaeda had an opportunity 
to prosper and to become stronger and to be resilient and 
continue to pursue their objectives.
    So what you have seen us do here most recently is renew our 
focus on that. And we are doing that with a variety of our 
partners in the region, the UAE and Saudi Arabia certainly 
among the principal partners that we are working with with 
respect to that.
    With respect to their long-term presence, that is probably 
a better question for them. I don't know. I don't have any 
insight into what their strategic calculations might be there, 
but, you know, I think, as we see in most of these areas, a 
long-term commitment is usually necessary to really change 
conditions.
    Mr. Gallagher. Sure. In Syria, Russia has seemingly doubled 
down on a long-term commitment going back to the 1950s with its 
client state there. It seems to me that Russia and Iran are in 
a tactical alliance in Syria, they sort of share the same 
organs, Russia provides air power, the Iranians, particularly 
through Hezbollah, provide a lot of the ground forces. Do you 
see evidence of a broader regional alliance between Russia and 
Iran, and if so, what are its manifestations?
    General Votel. Well, I think there perhaps could be. I am 
not sure I see specific indications of that in other areas, but 
certainly they are cooperating together. I think the 
implications of this are things that we have seen. We have seen 
Russian jets operating out of Iranian bases. And certainly 
their cooperation together to prop up the regime and give them 
new life here is certainly an implication of that relationship 
right there.
    So I am very, very--I am concerned about that. I think we 
should be concerned about it. I don't know that we have great 
insight into what their--what the Russian long-term perspective 
is on that relationship.
    Mr. Gallagher. I too am concerned. I think the rise of the 
Russian-Iranian axis has been the biggest development in the 
region the last couple of years related to the Iran deal.
    One strange bit of continuity in the region has been a 
return in Egypt to some form of authoritarianism. Can you 
comment--and it has caused a great debate within foreign policy 
circles within the left and the right.
    Can you comment on whether you are getting the cooperation 
you need from a military perspective from the Sisi government 
in Egypt?
    General Votel. I think Egypt is an extraordinarily 
important partner to us. We kind of consider them to be the 
gateway into the region. They have had historical long-term 
relationships there. They are an extraordinarily important 
country to them. They have been very helpful in the Sinai, 
helping address threats to the multinational force there. They 
were particularly responsive to our request for assistance 
there. And they have been very, very good--very, very good 
partners there. And, you know, while we have had perhaps some 
differences politically with them, one of the things we have 
been able to maintain, I think, is a good military-to-military 
contact.
    And I think--and from a CENTCOM commander standpoint, I 
look forward to continuing to build on that as we move forward. 
I think it is a vital relationship for us.
    Mr. Gallagher. So would it be fair to say, General, that 
from your perspective, the FMF program and the broader 
relationship we have with Egypt is achieving its objectives?
    General Votel. Well, I don't know, because right now we do 
see some instances where countries like Egypt and others are 
reaching out and buying their military hardware from other 
countries.
    So, again, I think this kind of goes back to the discussion 
we had earlier about FMF. I think our FMS program accomplishes 
a lot of purposes out there. One of the principal ones, from my 
perspective as the CENTCOM commander, is building capability 
with our partners, especially capability that can be integrated 
with our capabilities so that we can operate together.
    When we choose not to allow them to buy our systems or to 
buy--they will look other places for this. This doesn't 
necessarily help them, because they get lesser systems, they 
don't get the sustainment, they don't always get the training 
with that, they are stuck with stuff that they can't fully use, 
and it is not integrated with us.
    And so I think FMF and FMS are extraordinarily important 
programs that fit into our security equation across the region.
    Mr. Gallagher. Thank you, General. I am out of time, but--
and I know it is something that adds to your AOR, but maybe 
afterwards, we could talk about to what extent our involvement 
with the YPG [Kurdish People's Defense Unit] in Syria has 
affected our relationship with Turkey and sort of, more 
broadly, how our relationship with Turkey affects your efforts.
    Thank you, Mr. Chairman. I yield.
    The Chairman. General, I will just add two points on the 
FMF discussion.
    Number one, all our allies--I would say virtually all, if 
not all, our allies are very frustrated with the process.
    So you talked about decisions, absolutely, that is one 
thing, but then the process being so sluggish, even if we 
ultimately decide that it is in our interest to sell or provide 
equipment, has even--even then it is a subject of frustration.
    So our Oversight and Investigation Subcommittee is looking 
into this issue from our standpoint. I am hopeful that a number 
of members, who are also on the Foreign Affairs Committee, will 
look at it from the State Department standpoint, because I 
think one of your early points was reestablishing trust, and 
this is an important thing to reestablish trust.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General Votel, it is a great honor to be with you. 
Every time I am with you, it is just so reassuring. And I am 
also so grateful for the American people to hear your service. 
I appreciate it as a Member of Congress, and also I appreciate 
it as a fellow veteran, but I particularly appreciate your 
service as a military dad. I always like to recognize your 
service has meant so much to our family.
    My oldest son served for a year, field artillery, in Iraq; 
my second son was a Navy doctor serving with the Rangers and 
the SEALs in Iraq; my third son, a signal officer, served in 
Egypt; and I am grateful that our youngest son was an engineer 
in Afghanistan. And so we certainly cover the CENTCOM area of 
jurisdiction, and at all times we appreciate your leadership. 
And I give credit to my wife for training these guys. But thank 
you.
    As the Iraqi Security Forces continue to make progress 
toward liberating Mosul, what is the latest on the operation 
and what have been the keys to the Iraqi army's success?
    General Votel. Thank you, Congressman. And let me just say 
on behalf of CENTCOM, we appreciate all the contributions of 
Team Wilson there and we are very, very grateful for it.
    Turning to Mosul, the Iraqi Security Forces are making, I 
think, good progress. This has been an extraordinarily 
challenging fight. It took them about 100 days to secure the 
eastern side of the city. They did that at a cost of 490 killed 
and just about over 3,000 wounded. So it is an extraordinary 
price that they paid for that. They very quickly were able to 
get themselves focused on the western part of the city. And 
they are now engaged in what we are seeing as a very, very 
difficult fight there.
    Some of their elements are engaged in what is known as the 
old city here, a very dense urban area, much, much more complex 
and much more favors the defender than it does the attacker, 
and so they have got their hands full as they are doing this.
    I would just note that the Iraqi Security Forces just so 
far in about 37 days have sustained about 284 killed and a 
little over 1,600 wounded in the western part of the city.
    The keys to success here have been, I think, the very close 
relationship they had with both U.S. and coalition advise and 
assist teams, and the ability for the Iraqi Security Forces to 
come together. As you know, institutionally they have got some 
challenges here. They have got federal police that answer to 
the ministry of interior, they have got Iraqi army that answers 
to the ministry of defense, and they have got counterterrorism 
forces that answer to the counterterrorism directorate, and so 
these are all separate ministries.
    But what they have been able to do successfully is get a 
common commander in place among all of those different pillars 
of security here, who really performs a very good integrating 
fashion, and so they are operating much better in conjunction 
and in synchronization with each other, and I think that has 
really paid off in what has been a very, very difficult, and 
will continue to be a very difficult fight in the weeks and 
perhaps months ahead.
    Mr. Wilson. Well, it is so important. And the American 
people need to know the city is over a million persons, it is 
the second largest city in the country of Iraq, and how 
important it is that it be liberated, and the subjugation and 
oppression that the people must have faced in the last year, 2 
years.
    And it was so encouraging for all of us last week on the 
Foreign Affairs Committee to have the opportunity to be with 
Prime Minister Abadi. I had met him in Baghdad last month, and 
it is just so impressive. And also the minister of defense, 
Hiyali, again, it is just--that country, I think, has very 
positive leadership for you to work with.
    Additionally, you testified about Russia's entry into the 
Syrian conflict and that it has negatively impacted the balance 
of power. What is the latest on Russia's intrusion into Syria?
    General Votel. Well, as you know, they have been focused 
on--I think, mostly focused on helping the regime accomplish 
some of their objectives in the western part of the country, 
and they, I think, have been successful at that.
    I think Russia has achieved probably many of the objectives 
that they set out to pursue as they got in there. They have got 
a government that is favorable to them, access to ports, access 
to airfields, influence in the region, so I think they have 
accomplished that.
    They have, I think, begun to--they are continuing to 
support regime forces now in this case as they fight ISIS. So 
to the extent that they are doing that, that is, I would admit, 
helpful to what we are doing.
    I would share with you, Congressman, that we do share a 
very congested airspace with the Russians. We have a 
deconfliction mechanism in place. It is generally a very 
professional interchange. We talk with them very frequently to 
coordinate--not to coordinate, but to deconflict our operations 
in what is a very compressed airspace over northern Syria. That 
generally goes pretty well.
    We are looking to make that a little bit more robust to 
ensure that we continue our freedom of action here as we 
continue to pursue the campaign.
    Mr. Wilson. Thank you very much.
    The Chairman. General, thank you.
    As you can tell, members are interested in some further 
discussions in a classified session, which will start in just a 
few moments upstairs, but for now, this hearing stands 
adjourned.
    [Whereupon, at 11:41 a.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 29, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 29, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 29, 2017

=======================================================================

      

      

                  QUESTIONS SUBMITTED BY MS. STEFANIK

    Ms. Stefanik. In terms of information operations and countering 
ISIL propaganda efforts--we have seen some tactical success in Iraq and 
Syria, but I am concerned with about what I perceive to be a larger 
strategic gap across our government. Can you talk about ways to improve 
CENTCOM information operations requirements, and how we can improve our 
ability to counter ISIL's global and strategic propaganda efforts? Is 
the State Department's Global Engagement Center the right place for DOD 
to interface for these types of efforts as we try to counter ISIL and 
state-sponsored actors, and if so, how can we strengthen that 
relationship? Are you seeing any troubling propaganda efforts within 
your AOR from state-sponsored actors such as Russia, and if so how are 
you dealing with this?
    General Votel. USCENTCOM is part of a much larger effort which 
includes not only USG departments and agencies, but the governments of 
our Coalition partners, non-government organizations, and various 
entities from the private sector. If we are serious about defeating 
ISIS in the information environment, we must match ISIS' level of 
intensity, volume and effectiveness in the information environment. We 
must do the same in response to all adversaries choosing to compete in 
the information battlespace. The State Department's Global Engagement 
Center provides a very effective functional mechanism through which we 
can mass the effects necessary to counter and ultimately defeat ISIS. 
As the Global Engagement Center continues to mature its capability, 
USCENTCOM will work through the Joint Staff and OSD to help expand and 
improve coordination across the Department of Defense and the 
Interagency. Russia and Iran both are using information operations 
(e.g., propaganda) to achieve their desired effects in the USCENTCOM 
AOR. Both have established large, well-resourced information warfare 
capabilities. Within our authorities and resources, USCENTCOM counters 
this propaganda. CENTCOM WebOps specifically counters allegations of 
U.S. assistance to ISIS and exposes Russian and PMF violation of the 
Laws of Armed Conflict, among other activities.
    Ms. Stefanik. Can you provide us with more of your thoughts and 
concerns about Russian influence within your AOR, beyond what is talked 
about in Syria? There have been recent reports about Russian 
collaboration with the Taliban, and Russia increasing their presence 
and influence in Egypt, as just two examples.
    General Votel. [The information provided is classified and retained 
in the committee files.]
    Ms. Stefanik. Describe the threat posed by Al Qaeda, the Islamic 
State-Khorasan Province, and the Haqqani network. What, if any, 
limitations exist on your ability to effectively target these threats?
    General Votel. [The information provided is classified and retained 
in the committee files.]
    Ms. Stefanik. According to some news reports, Iran has supported 
the Houthi militia in Yemen. Other reports suggested that there is not 
a strong link between the two. What is your assessment of the nature of 
Iranian support to the Houthis in Yemen? How does this impact our 
strategy? Can we achieve our objectives in Yemen absent a political 
solution?
    General Votel. [The information provided is classified and retained 
in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. ABRAHAM
    Dr. Abraham. Can you discuss the long-term threat Hezbollah 
presents to U.S. interests, and apart from increased sanctions, how can 
Congress further help in the fight against Hezbollah?
    General Votel. [The information provided is classified and retained 
in the committee files.]
    Dr. Abraham. With regard to Turkey: With last year's coup attempt 
and the potential for political instability ahead of this year's April 
presidential referendum, what are some of the challenges you have faced 
and expect to face with U.S. and coalition air support for CENTCOM 
missions flying out of Incirlik Air Base?
    General Votel. [The information provided is classified and retained 
in the committee files.]

                                  <all>
</pre></body></html>
